U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

March 3, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Lugo v. United States, No. 19-855
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 6,
2020. The government’s response is now due, after one extension, on March 9, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including April 8, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0855
LUGO, LENIN
USA

JEFFREY T. GREEN
SIDLEY AUSTIN LLP
1501 K STREET, N.W.
WASHINGTON, DC 20005
202-736-8291
JGREEN@SIDLEY.COM
ROY A. KATRIEL
THE KATRIEL LAW FIRM, PC
2262 CARMEL VALLEY ROAD
SUITE 201
DEL MAR, CA 92014
619-363-3333
RAK@KATRIELLAW.COM
STEPHEN J. STANLEY
ATTORNEY AT LAW
41 E. MADISON STREET
SUITE 1100
TAMPA, FL 33602
813-226-2727
STEPHENJSTANLEY@YAHOO.COM

